CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document complies with
the word limitations of Rule 33.1(g), and that it contains 8,529 words, excluding the
parts of the document that are exempted by Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 15, 2021

/s/ James H. Hulme
James H. Hulme
ARENT FOX LLP
1717 K Street, NW
Washington, D.C. 20006
(202) 857-6144
james.hulme@arentfox.com

